<html>
<title> - BUILDING A SECURE COMMUNITY: HOW CAN DHS BETTER LEVERAGE STATE AND LOCAL PARTNERSHIPS?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  BUILDING A SECURE COMMUNITY: HOW CAN DHS BETTER LEVERAGE STATE AND 
                          LOCAL PARTNERSHIPS?
=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2012

                               __________

                           Serial No. 112-102

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
79-844                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                                Witness

Mr. John Morton, Director, U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security
  Oral Statement.................................................     8
  Prepared Statement.............................................     9


  BUILDING A SECURE COMMUNITY: HOW CAN DHS BETTER LEVERAGE STATE AND 
                          LOCAL PARTNERSHIPS?

                              ----------                              


                         Tuesday, July 10, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, McCaul, Quayle, 
Duncan, Cuellar, Jackson Lee, and Thompson (ex officio).
    Mrs. Miller. The Committee on Homeland Security, our 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine how the 
Department of Homeland Security can better leverage State and 
local partnerships through programs like Secure Communities. 
Our witness today is John Morton, who is the Director of 
Immigration and Customs Enforcement.
    I would just begin my opening statement by welcoming the 
director. We are sincerely appreciative of his participation 
today.
    We also want to, of course, extend our condolences on the 
recent shooting of ICE Agent Kelton Harrison, which certainly 
demonstrates the risks that our agents, brave men and women on 
the front lines, are facing each and every day. We certainly 
pray for his speedy recovery as well.
    Again, I want to thank the director and the men and women 
of Immigration and Customs Enforcement, who do a magnificent 
job.
    I think all of us here on this subcommittee want to do 
everything in our power to make sure that we give ICE the tools 
and the resources and the support that they need to get the job 
done.
    Tangible border security requires that we take a layered 
approach, and not just solely focus on the line in the sand 
that separates the United States from Mexico. We have the long, 
often-liquid border that we share with Canada, or of course the 
thousands of miles of coastline. Because the truth is, despite 
our best efforts and the billions we spend on personnel, on 
infrastructure, technology, drug and human smugglers and others 
will inevitably try to find a way through. Not only do 
hardworking people come across the border in search of a better 
life, but human smugglers and drug cartels and drug mules also 
come into this country with less than pure motivations, and 
often prey on the innocent.
    I think it is important to note that when we discuss border 
security, visa security cannot be overlooked. Estimates vary, 
but the core truth is that many who enter the country illegally 
walk in through the front door, and they never leave following 
the expiration of their visas. We saw that with several of the 
9/11 terrorists and even the recent case of the attempted 
Capitol bomber who were all here on extended overstays, visa 
overstays. Tracking down visa overstays and removing dangerous 
criminals and recent border crossers is perhaps the most 
critical enforcement layer when we think about what a secure 
border and safer communities actually look like.
    I would remind my colleagues as well that every single 
person who crosses the border illegally, of course, has 
committed a crime. We can't ignore the fact or sweep it under 
the rug. Sending the message that unless you commit a serious 
crime, that we are not going to bother with the efforts to 
deport you, is I think a dangerous signal to be sending. It 
threatens the safety of our country. Prioritization of limited 
resources toward the most dangerous criminals certainly makes 
sense. But ICE as well can't ignore low-level criminals because 
of the very real potential that they will go on to commit more 
serious crimes aside from entering the country illegally, which 
I say is still a violation of the law.
    When we think about what is the best use of our limited 
resources, we should be fully cognizant of the fact that 
although ICE is a large organization with more than 20,000 
agents, the scope of the immigration and border security 
problem is very large for them to tackle alone. We can 
certainly debate the merits and wisdom of tough State 
immigration laws, but ICE also needs to be cultivating and 
leveraging partnerships with State and local governments who 
are more often than not willing to share that burden. I am sure 
the director is going to be talking about that today.
    We have seen some delays in the roll-out of the Secure 
Communities in Alabama because of the disagreement with the 
tough State law. We have also seen a go-slow approach to the 
roll-out in Illinois, in Cook County in particular, which 
refuses to honor ICE detainers on even the most dangerous 
criminals, putting citizens and the Nation at risk. I am sure 
we will have some questions for the director about those two 
incidents as well.
    Immigration enforcement is certainly a Federal 
responsibility, and the Congress has authorized as well State 
and local law enforcement to provide support in certain 
circumstances. Secure Communities and the 287(g) program and 
others are critical components in the last line of defense. 
Congress created Secure Communities in fiscal year 2008 as a 
pilot program to establish the capability to identify all 
criminal aliens or potential criminal aliens at the time of 
arrest. In activated jurisdictions, which is now about 97 
percent of the entire country, all of those arrested have their 
fingerprints run against databases to determine if they are in 
the country legally or not.
    The program, now a permanent program, is in operation, as I 
say, in all of these jurisdictions Nation-wide, with the goal 
of having the program on-line Nation-wide by the end of this 
year. Since the program was activated, it has helped lead to 
the removal of more than 141,000 convicted criminals who were 
unlawfully present in this country.
    So I find it amazing, really, that there was so much 
opposition to this program. Fully 94 percent of the aliens 
deported by this very valuable program are either convicted 
criminals or recent border crossers or visa overstays. This 
begs a very simple question: How can you oppose a program with 
those results unless you are not really vested in this Nation 
securing our borders?
    However, this is precisely the position several open-border 
groups have advocated and formalized in the Secure Communities 
task force report, ultimately resulting in ICE's adoption of a 
policy to halt deportations until actual convictions for low-
level traffic violations.
    My only concern with the Secure Communities program is that 
we have heard some reports about aliens who have been convicted 
of lower-level offenses who have generally been ignored with 
little law enforcement action taken against that group.
    Without taking enforcement actions against all criminal 
aliens, programs such as Secure Communities may result in large 
numbers of identified criminal aliens being released back into 
society, which of course is an unacceptable outcome for our 
communities. The purpose of today's hearing is to examine the 
work that ICE is doing to leverage local and State resources.
    Congress is eager and willing to facilitate cooperative 
efforts to secure the border, to remove dangerous criminal 
aliens from our streets and to help the Department of Homeland 
Security secure our Nation's homeland. Again, that is the 
purpose of this hearing.
    [The statement of Chairwoman Miller follows:]
               Statement of Chairwoman Candice S. Miller
    First, I would like to thank the Director and the men and women of 
Immigration and Customs Enforcement, who do a magnificent job, and I 
think that all of us here on the subcommittee want to do everything in 
our power to give ICE the tools, resources, and support they need to 
get the job done.
    The recent shooting of Special Agent Kelton Harrison while he was 
conducting surveillance near McAllen, Texas demonstrates the risk that 
our agents face on a daily basis. We certainly hope and pray for his 
speedy recovery.
    Tangible border security requires we take a layered approach and 
should not focus solely on the line in the sand that separates the 
United States and Mexico, the long, often liquid, border we share with 
Canada, or the thousands of miles of coastline.
    Because if we are honest, the truth is, despite our best efforts, 
and the billions spent on personnel, infrastructure, and technology, 
drug and human smugglers and others will inevitably find a way get 
through.
    Not only do hard-working people come across the border in search of 
a better life, but human smugglers, drug cartels, and drug mules also 
come to this country with less-than-pure motivations, and often prey on 
the innocent.
    I think it is important to note that when we discuss border 
security, visa security cannot be overlooked. Estimates vary, but the 
core truth is that many who enter the country illegally walk in through 
the front door and never leave following the expiration of their visa, 
as we saw with several of the 9/11 hijackers and even the recent case 
of the attempted Capitol bomber.
    In my mind, tracking down visa overstays, removing dangerous 
criminals, and recent border-crossers is perhaps the most critical 
enforcement layer as we think about what a secure border and safer 
communities look like.
    I would like to remind my colleagues that every single person who 
crosses the border illegally has committed a crime, and we cannot 
ignore that fact or sweep it under the rug. Sending the message that 
unless you commit serious crimes, we will not bother with the effort to 
deport you, is dangerous and threatens the safety of our country.
    Prioritization of limited resources toward the most dangerous 
criminals makes sense, but ICE should not ignore low-level criminals 
because of the very real potential that they will go on to commit more 
serious crimes, aside from entering the country illegally, which is 
still a violation of the law.
    As we think about the best use of our limited resources, we should 
be fully cognizant of the fact that although ICE is a large 
organization, with more than 20,000 agents, the scope of the 
immigration and border security problem is too large to tackle alone.
    We can certainly debate the merits and wisdom of tough State 
immigration laws, but ICE should be cultivating, and leveraging, 
partnerships with State and local governments, who are more often than 
not willing to share the burden.
    Instead, we've seen delays with the roll-out of Secure Communities 
in Alabama, because of this administration's disagreement with a tough 
State law, and a go-slow approach to the roll-out in Illinois. In fact, 
Cook County refuses to honor ICE detainers on even the most dangerous 
criminals--putting their citizens and this Nation at risk.
    However, whereas the administration has taken legal action against 
certain States such as Arizona, it refuses to confront Cook County--the 
President's hometown.
    On the surface, it appears ICE and this administration want to 
tackle the interior enforcement issue largely without the help of State 
and locals, or at least only on their terms--a tragic error of judgment 
in my view. While immigration enforcement is certainly a Federal 
responsibility, Congress has authorized State and local law enforcement 
to provide support in certain circumstances.
    Secure Communities, the 287(g) program and others are critical 
components of what I call the last line of defense as we work to secure 
the border.
    Congress created Secure Communities in fiscal year 2008 as a pilot 
program to establish the capability to identify all criminal aliens or 
potential criminal aliens at the time of arrest. In activated 
jurisdictions, all those arrested have their fingerprints run against 
databases to determine if they are in the country legally.
    The program, now permanent, is operational in 97% of jurisdictions 
Nation-wide, with the goal of having the program on-line Nation-wide by 
the end of this year. Since the program was activated, it has helped 
lead to the removal of more than 141,000 convicted criminals who were 
unlawfully present in this country, so it is really beyond 
comprehension why there is so much opposition to this program.
    Fully 94% of the aliens deported by this valuable program are 
either convicted criminals or recent border-crossers, or visa 
overstayers.
    This begs a simple question: How can you oppose a program with 
those results unless you're not really vested in this Nation securing 
its borders?
    However, this is precisely the position several open-borders groups 
have advocated and formalized in the Secure Communities Task Force 
report, ultimately resulting in ICE's adoption of a policy to halt 
deportations until actual convictions for lower-level traffic 
violations.
    My only concern with the Secure Communities program is that we have 
heard troubling reports about aliens who have been convicted of lower-
level offenses have generally been ignored, with little enforcement 
action taken against that group.
    Without taking enforcement actions against all criminal aliens, 
programs such as Secure Communities may result in large numbers of 
identified criminal aliens being released back into society--an 
unacceptable outcome for our communities.
    The purpose of today's hearing is to examine the work that ICE is 
doing to leverage local and State resources.
    Congress is eager and willing to facilitate cooperative efforts to 
secure the border, remove dangerous criminal aliens from our streets, 
and help DHS secure the Nation's homeland.

    Mrs. Miller. The Chairwoman now recognizes the Ranking 
Minority Member of the subcommittee, the gentleman from Texas, 
Mr. Cuellar, for his opening statement.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    Thank you for holding this hearing today.
    I would like to thank also Director Morton for joining us 
today, and I look forward to his testimony.
    Before we begin, I would like to express my condolences to 
the family of the Border Patrol agent, Leopoldo Cavazos, Jr., 
who died in the line of duty on July 6 after an accident near 
Fort Hancock in west Texas.
    I would also like to wish a quick recovery to HSI Special 
Agent Kelton Harrison, who was shot in the line of duty near 
Hargill, Texas.
    I believe, Director, you are heading over there to go visit 
the family and him also. I think he was shot there last week. 
Again, thank you for showing there in my county, one of the 
counties that I represent. These terrible incidents are a stark 
reminder that the men and women at DHS law enforcement put 
their lives on the line every day to make our country more 
secure. We greatly appreciate their service and sacrifice. The 
purpose of today's hearing is to examine the status of ICE 
Secure Communities program, along with the agency's plan for 
the future of the program. Removing criminal aliens from the 
United States has been a Congressional priority since 1986, 
with the passage of the Immigration Reform Control Act.
    The Department of Homeland Security and its predecessor 
agency have operated programs targeting criminal aliens for 
removal since 1988. Today, under the Secure Communities 
program, when participating law enforcement agencies submit the 
fingerprints of arrestees to the FBI for criminal background 
checks, the fingerprints are also now automatically sent to DHS 
for ICE to check against them for DHS databases.
    I know when I was traveling in my Congressional district, 
because I wanted to have all of my Congressional district, I 
travel with ICE, and we told the folks that it was just a very 
simple thing. When they put the fingerprint, you used to just 
go check the criminal background. But once in and in jail and 
they give their fingerprint, now they send off for the 
immigration status. I think it is just a very common-sense 
approach. Of course, you all are in all 254 counties in Texas 
and all across I think there is a couple States that we want to 
talk about in a few minutes.
    The ICE reports show that through March 31, 2012, more than 
135,000 immigrants convicted of crimes, including more than 
49,000 convicted of aggravated felony offenses, like murder and 
rape, were removed from the United States after identification 
through Secure Communities. My brother, who is a border 
sheriff, was giving an example of they stopped somebody, they 
had somebody in jail, and it turned out that he was there for 
murder in another State. So Secure Communities does work and it 
does help the local border law enforcement.
    Given ICE's relative limited enforcement resources compared 
to the number of individuals unlawfully presented in the United 
States, prioritizing criminals, and particularly the serious 
criminals, for removal keeps our communities safer and is the 
best use of taxpayers' dollars.
    The Secure Communities program has not been without 
controversy. I do understand that. I am pleased to say that 
ICE, under Director Morton's leadership, has taken steps to 
make enhancements to the program. For example, I was in 
Houston. I was there with Sheriff Garcia. He was telling me 
about the task force that they put together to make sure that 
ICE was working to improve its communication with State and 
local jurisdictions and Secure Communities not only there in 
Houston and Harris County, with Sheriff Garcia, but of course 
in other parts. We want to thank you to make sure that we 
minimize concerns over the possibility of racial profiling in 
the program. I hope to hear from Director Morton about ICE 
progress in this particular effort.
    I also hope to hear about how he intends to ensure that the 
program meets its stated mission of focusing on removing 
serious criminal aliens from this country. As a Member of 
Congress, we always want to make sure that the agencies 
understand: What is your core mission? What is your core 
mission? And make sure you accomplish those objectives.
    As a Member representing a border community, I know how 
important programs like Secure Communities are in addressing 
the issue of illegal immigration. Given its importance, I hope 
we can have a thoughtful, focused discussion on Secure 
Communities today.
    I look forward to having a productive dialogue with you, 
Director Morton.
    Again, I want to thank the Chairwoman and the Ranking 
Member of the full committee, Mr. Thompson, for all the good 
work that they are doing, along with the Members.
    Thank you, and I yield back the balance of my time.
    Mrs. Miller. The Chairwoman now recognizes the Ranking 
Member of the full committee, the gentleman from Mississippi, 
Mr. Thompson, for his statement.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Welcome, Director Morton. Good to see you again.
    Let me start by saying I strongly support the 
administration's decision to identify and remove aliens who may 
pose a threat to National security or public safety. However, I 
believe it is imperative that programs like Secure Communities 
be focused first and foremost on removing serious criminal 
offenders, given ICE's limited enforcement resources. The 
program must be administered to guard against racial profiling 
and protect community-police relations. In its September 2011 
report, the Homeland Security Advisory Council Task Force on 
Secure Communities made important recommendations to improve 
the program. I wholeheartedly agree with its recommendations 
that ICE develop good working relationships with participating 
States, cities, and communities, implement mechanisms to ensure 
the program prioritizes those who pose a risk to public safety 
or National security, and most importantly, strengthen 
mechanisms to prevent civil rights and civil liberties 
violations.
    In a response to the report, ICE has made plans to 
implement several changes to the Secure Communities program to 
address the task force's recommendations. I look forward to 
hearing from Director Morton today about the status of these 
efforts and what additional changes we should expect.
    Unfortunately, some of my colleagues on the other side of 
the aisle continue to describe ICE's practical, risk-based 
approach to the removal of undocumented aliens, whether they be 
brought to ICE through Secure Communities or another program, 
as administrative amnesty.
    As I have said before, unless and until Congress 
appropriates sufficient funds for ICE to apprehend and remove 
every undocumented alien in the country, we should support the 
agency's efforts to focus its limited resources on removing 
those undocumented aliens who pose the greatest threat to our 
Nation. It is also worth reiterating that under the current 
administration, ICE has removed more criminal aliens and more 
aliens total than under the Bush administration or any other 
prior administration, Democrat or Republican.
    With that, Madam Chairwoman, I would also again like to 
recognize Director Morton for the job that he is doing. I look 
forward to hearing from him and am certain he will provide the 
subcommittee with valuable insights into the complex issues of 
immigration enforcement.
    I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    Let me start by saying I strongly support the administration's 
decision to identify and remove aliens who may pose a threat to 
National security or public safety. However, I believe it is imperative 
that programs like Secure Communities be focused, first and foremost, 
on removing serious criminal offenders, given ICE's limited enforcement 
resources.
    The program must be administered to guard against racial profiling 
and protect community-police relations. In its September 2011 report, 
the Homeland Security Advisory Council (HSAC) Task Force on Secure 
Communities made important recommendations to improve the program.
    I wholeheartedly agree with its recommendations that ICE develop 
good working relationships with participating States, cities, and 
communities; implement mechanisms to ensure the program prioritizes 
those who pose a risk to public safety or National security; and, most 
importantly, strengthen mechanisms to prevent civil rights and civil 
liberties violations.
    In its response to the report, ICE has made or plans to implement 
several changes to the Secure Communities program to address the task 
force's recommendations.
    I look forward to hearing from Director Morton today about the 
status of these efforts and what additional changes we should expect. 
Unfortunately, some of my colleagues on the other side of the aisle 
continue to describe ICE's practical, risk-based approach to the 
removal of undocumented aliens, whether they be brought to ICE through 
Secure Communities or another program, as ``administrative amnesty.''
    As I have said before, unless and until Congress appropriates 
sufficient funds for ICE to apprehend and remove every undocumented 
alien in the country, we should support the agency's efforts to focus 
its limited resources on removing those undocumented aliens who pose 
the greatest threat to our Nation.
    It is also worth reiterating that under the current administration, 
ICE has removed more criminal aliens, and more aliens total, than under 
the Bush administration or any other prior administration, Democratic 
or Republican.
    With that, Madam Chairwoman, I would like to welcome Director 
Morton. I look forward to hearing from him and am certain he will 
provide the Members of this subcommittee valuable insight into the 
complex issue of immigration enforcement.

    Mrs. Miller. Other Members of the committee are reminded 
that opening statements might be submitted for the record.
    Again, our sole witness today is Mr. John Morton, who is 
the director of Immigration and Customs Enforcement, ICE, which 
is the principal investigative arm of the Department of 
Homeland Security. It is the second-largest investigative 
agency in the Federal Government. The agency's primary mission 
is to promote Homeland Security and public safety through the 
criminal and civil enforcement of Federal laws governing border 
patrol, customs, trade, and immigration. During his tenure at 
ICE, Director Morton has strengthened ICE's investigative 
efforts, with a particular emphasis on border crimes, export 
controls, intellectual property enforcement, and child 
exploitation.
    The Chairwoman now recognizes Director Morton for his 
testimony.
    Again, we welcome you to the committee, sir.

   STATEMENT OF JOHN MORTON, DIRECTOR, U.S. IMMIGRATION AND 
      CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Morton. Thank you so much, Madam Chairwoman. Mr. 
Cuellar, Mr. Thompson, Mr. Duncan, thank you for inviting me. 
It is my honor and pleasure to appear before you today to talk 
about Secure Communities and our other related initiatives. Let 
me start, Madam Chairwoman, by saying that I think that Secure 
Communities is an excellent program. I think it represents one 
of the most important efforts by the Congress to focus ICE's 
enforcement on criminal offenders.
    As you noted, Secure Communities got its start in 2008 in 
the Appropriations Act when Congress directed ICE to improve 
its efforts to identify convicted criminal aliens held in the 
Nation's jails for removal from the United States. Congress 
instructed ICE to identify all convicted criminals and to 
prioritize their identification and removal based on the 
severity of the aliens' crimes. Congress has since reiterated 
that direction in every single one of our subsequent 
appropriations and has consistently focused our detention 
resources accordingly.
    Secure Communities was launched in Harris County, Texas, in 
October 2008, and we have come a long, long way since that 
time. Secure Communities is now deployed in every State of the 
Union and fully deployed in every State, save Alabama and 
Illinois. Put another way, Secure Communities has been deployed 
to 3,074 of the 3,181 jurisdictions in the United States, a 
remarkable achievement in just under 4 years. I am confident we 
will complete full deployment in the near future, starting with 
the remaining jurisdictions in Alabama when the 11th Circuit 
rules on the pending litigation over Alabama's immigration law.
    For the first time in our Nation's history, we can 
uniformly identify individuals who are here unlawfully and are 
subsequently arrested for a crime provided that their 
fingerprints are on file with the FBI and DHS. This fingerprint 
sharing between the FBI and DHS, itself mandated by Congress in 
2002, now permits ICE to identify large numbers of criminal 
offenders subject to removal, as well as individuals who have 
been previously removed or have an outstanding final order of 
removal.
    The results have been significant, both in terms of 
immigration enforcement and public safety. ICE has removed 
58,297 individuals through Secure Communities so far this year 
alone, and over 140,000 criminals since the inception of the 
program, as the Chairwoman notes. This year, 75 percent of the 
individuals removed had a criminal conviction. Of the remaining 
quarter, the overwhelming majority were either absconders, that 
is immigration fugitives, or had illegally reentered the 
country after having previously been deported one or more 
times.
    Contrary to what critics allege, the single largest 
category of individuals removed through Secure Communities are 
aggravated felons, 17,000 to date this year alone.
    Madam Chairwoman, that is just good law enforcement.
    As the program has expanded, we have also taken care to 
address concerns raised in certain jurisdictions, as Mr. 
Cuellar and Mr. Thompson note. In particular, we have made some 
important improvements, including considering minor traffic 
offenses only upon conviction, creating a 24-hour hotline for 
anyone who believes they are a U.S. citizen or otherwise have 
been improperly served an immigration detainer, ensuring that 
victims and witnesses of crimes are not inadvertently placed in 
removal proceedings, and making clear that our detainers are 
valid for no more than 48 hours, and developing a strong 
oversight program in coordination with the Department of 
Homeland Security's Office of Civil Rights and Civil Liberties.
    With regard to the 287(g) program, we have 68 active 
agreements. That number has not changed much over the years. 
Forty are in a jail setting; 20 involve task forces; and 8 
involve both. The jail model continues to be the most 
productive by far, accounting for a little over 9,000 of the 
9,500 287(g) removals to date this year. The task force model 
has proved much less productive, with just 361 removals to date 
Nation-wide. We are phasing out most such agreements as a 
result. For example, of the 7 task force agreements we just 
ended in Arizona, 6 of the 7 had resulted in no removals of any 
kind for the last 2 years.
    With regard to overall enforcement, I think we will end the 
fiscal year with similar results to last year, that is about 
400,000 removals. Like last year, these removals will focus 
heavily on our enforcement priorities. Over half will have 
criminal convictions, and the vast majority of the rest will be 
recent border violators, illegal reentrants, and those who have 
ignored a final order.
    Within our criminal removals, I think we will see further 
emphasis on Level 1 offenders. Indeed, I am cautiously 
optimistic that this year we will remove the highest number of 
aggravated felons in our history.
    One final note, Madam Chairwoman. I want to thank the 
committee for its thoughtful, bipartisan approach. I have 
always found the committee's oversight of ICE to have been firm 
but fair. The same was true when Mr. Cuellar was Chairman 
himself. I am happy to answer any questions that you or the 
committee may have.
    [The statement of Mr. Morton follows:]
                   Prepared Statement of John Morton
                             July 10, 2012
                              introduction
    Chairman Miller, Ranking Member Cuellar, and distinguished Members 
of the subcommittee: Thank you for the opportunity to address you today 
regarding U.S. Immigration and Customs Enforcement's (ICE) Secure 
Communities strategy which improves and modernizes the identification 
and removal of criminal aliens and other high-priority aliens from the 
United States. ICE is the principal investigative arm of the U.S. 
Department of Homeland Security (DHS), and our primary mission is to 
promote homeland security and public safety through the criminal and 
civil enforcement of Federal laws governing border control, customs, 
trade, and immigration. Secure Communities is critical to our success 
in targeting and removing convicted criminals, those who pose a threat 
to public safety, and egregious immigration law violators.
    The reality of finite resources requires law enforcement--at all 
levels--to use resources strategically and wisely to accomplish their 
mission. Over the past 3\1/2\ years, ICE has established clear 
priorities that focus our enforcement resources on aliens that pose a 
threat to public safety or National security, repeatedly violate our 
immigration laws or recently crossed our borders. Secure Communities 
utilizes the interoperability between the DHS Automated Biometric 
Identification System (IDENT) and the Federal Bureau of Investigations 
(FBI) Integrated Automated Fingerprint Identification System (IAFIS), 
as a tool to focus the agency's resources on identifying and 
apprehending convicted criminals and other high-priority aliens.
    At the end of fiscal year 2009, Secure Communities' use of this 
Federal biometric information-sharing capability was deployed to 88 
jurisdictions across the Nation. That year, only 35 percent of ICE's 
removals were of criminal aliens. At the end of fiscal year 2011, 
Secure Communities deployed this capability to 1,595 jurisdictions. In 
fiscal year 2011, 55 percent of all of ICE's removals were of criminal 
aliens--the highest percentage of criminal aliens removed in decades. 
These successes are a direct result of Secure Communities' expansion of 
this Federal biometric information-sharing capability and highlight the 
effectiveness ICE's overall effort to establish clear priorities and 
focus agency resources.
                           secure communities
Overview
    While the fundamentals of Secure Communities remain sound, ICE is 
mindful of the concerns raised by some, including State and local law 
enforcement officials, and is committed to continuing to make 
operational adjustments to ensure that Secure Communities aligns with 
our operational priorities. Unfortunately, ICE's initial public 
statements often caused confusion about how Secure Communities works 
and who is required to participate. Given that there may remain some 
confusion surrounding Secure Communities, I want to take a moment to 
clarify what it is, and more importantly what it is not. Secure 
Communities focuses on improving and modernizing the identification and 
removal of criminal aliens and other high-priority aliens from the 
United States. The cornerstone of Secure Communities relies on the 
sharing, between the U.S. Department of Justice and DHS, of 
fingerprints submitted to the FBI by State and local law enforcement 
agencies for criminal justice purposes. The Federal biometric 
information sharing that Secure Communities uses typically begins when 
an individual is arrested and booked on a State or local criminal 
charges and his or her fingerprints are digitally scanned and 
transmitted to a State Identification Bureau (SIB). In turn, the SIB 
submits the fingerprints to the FBI Criminal Justice Information 
Services Division (CJIS) to check against IAFIS for criminal data.
    When fingerprints are submitted to the FBI, they are shared with 
DHS. If submitted fingerprints match a record in the DHS US-VISIT 
database, which contains biometrics on individuals who have had prior 
encounters with immigration officials, ICE Law Enforcement Support 
Center (LESC) personnel will then query additional DHS databases to 
determine if the person may be present in violation of U.S. immigration 
law. LESC personnel also query criminal history databases to compile a 
more complete criminal history record of current and prior criminal 
offenses for ICE enforcement personnel to review.
    The findings are sent electronically to the local ICE Field Office 
or a Secure Communities Interoperability Response Center where a 
determination is made whether to initiate an immigration enforcement 
action in line with ICE's enforcement priorities. This determination is 
based on the subject's criminal and immigration history, available ICE 
resources in the location, and other mitigating circumstances that ICE 
agents and officers consider when determining whether the individual is 
an appropriate candidate for prosecutorial discretion. If feasible, 
based upon the arresting agency's technical capabilities and upon the 
request of the State, the findings are also made available to the SIB 
and the law enforcement agency that submitted the fingerprint to aid in 
clarifying the identity of the subject. Neither the State nor the 
arresting law enforcement agency, in the absence of formal 287(g)-
delegated authority from an agreement with DHS, is authorized to take 
immigration enforcement action against the person arrested. This 
authority remains solely with DHS.
    Secure Communities' use of this information-sharing capability does 
not in any way authorize a State or local agency to enforce immigration 
laws. The determination to make an arrest is at the sole discretion of 
the State and local law enforcement officer, acting under the criminal 
law authority of the jurisdiction in which they operate. Not every 
person arrested will be subject to a Secure Communities' IDENT/IAFIS 
interoperability query. Only when State or local law or policy 
prescribes that the fingerprints be taken from an individual in custody 
for a criminal charge and then be submitted to the FBI's IAFIS database 
will that individual's fingerprints be checked against DHS's 
immigration databases. Even when an individual's fingerprints are 
submitted, ICE may choose not to take action if the individual does not 
meet ICE enforcement priorities. While State and local law enforcement 
officials decide whom to arrest and whether to submit fingerprints to 
the FBI, when there is a biometric match through Secure Communities' 
use of this information-sharing capability an ICE official reviews both 
the criminal record and the immigration history and then determines if 
an immigration enforcement action is warranted in light of ICE's 
enforcement priorities.
    Only those fingerprints submitted to the FBI in relation to a 
criminal charge are subject to Secure Communities' use of IDENT/IAFIS 
interoperability. By comparison, prints submitted to the FBI as part of 
a background check for employment or other non-criminal purposes are 
not subject to Secure Communities' use of IDENT/IAFIS interoperability.
Improvements to Secure Communities
    In 2011, as part of the administration's continued commitment to 
smart, effective immigration enforcement, ICE announced key 
improvements to IDENT/IAFIS interoperability through Secure 
Communities, including:
    Advisory Committee Input.--In light of the confusion about how 
Secure Communities works and who is required to participate that had 
been created by certain ICE statements, a Task Force of the Homeland 
Security Advisory Council examined ways to improve Secure Communities, 
including providing recommendations on how to best focus on individuals 
who pose a true threat to public safety or National security and how to 
address some of the concerns that ``relate to [its] impact on community 
policing and the possibility of racial profiling.''
    This Task Force issued a report of Findings and Recommendations 
(Report). ICE appreciates the Task Force's diligent work in preparing 
their Report, which ICE took seriously. In response to it, ICE then 
conducted a detailed review of the Report, and in April 2012 issued its 
response highlighting key improvements to Secure Communities. In this 
response, ICE adopted a new policy regarding individuals arrested for 
minor traffic offenses. Under this policy, ICE will only consider 
issuing detainers for individuals arrested solely for minor traffic 
offenses who have not been previously convicted of other crimes and do 
not fall within any other ICE priority category, upon conviction for 
the minor criminal traffic offense. This new policy will help focus ICE 
resources on those who pose a threat to public safety or National 
security, as well as repeat or egregious immigration law violators and 
recent border-crossers. It is also designed to create a disincentive 
for local law enforcement from making pretextual arrests of traffic 
violators.
    Issuance of Prosecutorial Discretion Guidance.--On June 17, 2011, I 
issued a memorandum providing guidance for ICE law enforcement 
personnel and attorneys regarding their authority to exercise 
discretion when appropriate. This long-standing authority is designed 
to help ICE better focus on meeting the priorities of the agency and to 
use ICE's enforcement resources to target criminals and those that put 
public safety at risk. The memorandum applies fully to any enforcement 
action taken with respect to individuals identified through Secure 
Communities' use of IDENT/IAFIS interoperability.
    The memorandum makes clear that the favorable exercise of 
discretion is not appropriate in cases involving threats to public 
safety, National security, and other agency priorities. Moreover, to 
ensure that this agency guidance is implemented consistently, ICE 
developed an intensive practical training module for its attorneys and 
field leadership on the proper exercise of prosecutorial discretion. I 
have also personally visited many of our field offices to speak with 
both ICE officers and attorneys about the guidance memo and its proper 
implementation. These proactive measures reflect our firm commitment to 
effectively prioritizing our immigration cases.
    Prosecutorial Discretion: Certain Victims, Witnesses, and 
Plaintiffs.--At the direction of the Secretary of Homeland Security, 
ICE, in consultation with the DHS Office for Civil Rights and Civil 
Liberties (CRCL), has developed a new policy designed specifically to 
protect victims of domestic violence and other crimes and to ensure 
these crimes continue to be reported and prosecuted. This policy 
directs ICE officers to exercise appropriate discretion to ensure 
victims and witnesses to crimes are afforded the legal protections for 
which they may be eligible. ICE is also working to develop additional 
tools, such as a risk classification assessment tool, to be used during 
intake into detention, to help identify people who may be victims, 
witnesses, or members of a vulnerable class so that officers can 
exercise discretion as appropriate. The memorandum also applies fully 
to any enforcement action taken with respect to individuals identified 
through Secure Communities' use of IDENT/IAFIS interoperability.
    Outreach to States.--ICE and CRCL have developed a series of 
briefing and awareness materials for State and local law enforcement 
agencies to provide clear information about how Secure Communities 
works and how it relates to laws governing civil rights. The briefings 
take the form of a series of videos and supplemental materials, which 
include input from law enforcement and community groups, to be shown to 
local law enforcement during daily roll-call and during other 
trainings. Three of the eight planned modules--those on Secure 
Communities, immigration detainers, and consular notification--have 
been released and can be viewed on the ICE website. The remaining 
modules are expected to roll out through the end of 2012.
    Issuance of a Revised Detainer Policy.--ICE has revised the 
detainer form that ICE sends to local jurisdictions to emphasize the 
long-standing guidance that upon receipt of a detainer subject to which 
an alien is to be held, State and local authorities are not to detain 
an individual for more than 48 hours beyond the time when the 
individual would have otherwise been released from State or local 
custody, excluding weekends and holidays. The form also requests that 
local law enforcement officials provide arrestees with a copy, which 
includes information in several languages on how to file a complaint if 
an individual believes their civil rights have been violated or that 
they have been the victim of a crime, or that they are able to make a 
claim of U.S. citizenship, which can be directed to a new 24-hour 
hotline answered by the LESC.
    Complaints.--ICE takes seriously complaints raised about civil 
rights violations related to Secure Communities. As a part of our 
commitment to ensure that Secure Communities appropriately fulfills its 
mission, ICE has worked with CRCL to publicly explain, through a series 
of town halls and on both ICE and CRCL's websites, the protocol for 
addressing complaints raised about civil rights violations related to 
Secure Communities, including complaints regarding State and local law 
enforcement actions. CRCL has opened investigations under that 
framework. In addition, ICE's Public Advocate, who works directly for 
the head of ICE's Enforcement and Removal Operations (ERO), is 
available to assist individuals and community stakeholders in resolving 
complaints and concerns with agency policies and operations, including 
concerns with Secure Communities.
    Statistical Review.--ICE and CRCL have created an on-going 
quarterly statistical review of data generated through Secure 
Communities' use of IDENT/IAFIS interoperability. This review examines 
data for each jurisdiction where Secure Communities' use of IDENT/IAFIS 
interoperability is deployed to identify any indications of anomalous 
arrest patterns that may indicate bias. Statistical outliers in local 
jurisdictions will be subject to an in-depth analysis, and DHS and ICE 
will take appropriate steps to resolve any problems. ICE and CRCL have 
posted both a concise explanation of this project and a technical paper 
on the data and statistical calculations being employed on the ICE 
website, http://www.ice.gov/secure_communi- 
ties/. The page also contains links to the various initiatives 
associated with Secure Communities.
Enhancing the Effectiveness of Secure Communities
    On March 27, 2012, the DHS Office of the Inspector General (OIG) 
issued two audit reports on Secure Communities: (1) ``Effectiveness of 
U.S. Immigration and Customs Enforcement's Secure Communities'' and (2) 
``Communication Regarding Participation in Secure Communities.'' 
Overall, the OIG determined that Secure Communities was effective in 
identifying criminal aliens and, in most cases, ICE officers initiated 
enforcement actions according to agency enforcement policy. OIG also 
found that ICE did not intentionally mislead the public or State and 
local jurisdictions during implementation of Secure Communities and its 
use of IDENT/IAFIS interoperability.
    In the first report, on effectiveness, OIG determined that ICE 
expanded its ability to identify criminal aliens in geographical areas 
not covered by its other programs. In addition, the report found that 
ICE was able to identify criminal aliens earlier in the justice 
process, some of whom it would not have identified under other 
programs. Through use of existing technical capabilities, Secure 
Communities' use of IDENT/IAFIS interoperability was implemented at 
little or no additional cost to local law enforcement jurisdictions. In 
that report, OIG made two recommendations to improve ICE's overall 
management of Secure Communities. To improve the transparency and 
thoroughness of its processes under Secure Communities, OIG noted that 
ICE needs to: (1) Eliminate the duplication of research; and (2) ensure 
that officers fully document their actions. ICE concurred with both 
recommendations and is taking action to implement them.
    In the second OIG report, regarding communications, OIG indicated 
that it did not find evidence that ICE intentionally misled the public 
or State and local jurisdictions during implementation of Secure 
Communities. OIG did note that ICE did not clearly communicate to 
stakeholders the intent of Secure Communities and their expected roles 
and made recommendations to ensure that expected participation is 
clearly communicated for Secure Communities and future ICE programs and 
initiatives.
    In response to these recommendations, ICE has also addressed the 
roles and responsibilities of ICE senior leadership and coordination 
with the Department regarding future immigration enforcement program 
development and implementation. Additionally, ICE has taken steps to 
respond to criticism about Secure Communities implementation, and to 
understand how the lessons learned about the importance of clear, 
effective communications about enforcement programs, goals, and 
objectives can guide future immigration enforcement program development 
and implementation.
                               conclusion
    Secure Communities serves a critical role in ICE's overall effort 
to focus agency resources on criminal aliens, repeat immigration 
violators, and recent border crossers. I again thank the committee for 
its continued support and the opportunity to share with you the good 
work of U.S. Immigration and Customs Enforcement. I am proud of the 
work our ICE teams do each and every day all around the world to help 
strengthen and secure our homeland and make our communities safer. On 
behalf of the men and women of ICE, I thank you for the opportunity to 
testify on these efforts. I would now welcome any questions you may 
have.

    Mrs. Miller. Thank you very much for your testimony, 
Director.
    I guess I would start off talking about Secure Communities. 
As you mentioned, it has been a successful program. It was one 
of the reasons we wanted to call this hearing today, to do our 
Congressional oversight and evaluate the program, how it rolled 
out, where are some of the hiccups we have encountered along 
the way, and really I think highlight the successful part of 
this program.
    Everything that we are doing in regards to border security 
is not as successful as Secure Communities. So I think it is 
good for us to amplify this message a bit about what a 
successful program it has been. I do think that a critical 
component in the makeup of why it has been successful is the 
engagement, if you will, the force multiplier that you are 
finding by utilizing the State and local law enforcement. One 
thing we always talk about on this committee, a very critical 
element of the 9/11 Commission's report that we never want to 
forget is where they said we have to go from the need-to-know 
to the need-to-share, from the need-to-know information to the 
need-to-share information, amongst all the various agencies. I 
think that is, again, a critical component of our layered 
approach to border security and law enforcement, et cetera.
    So, as was mentioned, you have pretty good buy-in, 
excellent buy-in I would say, across the entire Nation. I know 
in my district, and the Ranking Member and I were just talking 
about in his district, our local sheriffs are very enthusiastic 
about this program. It allows for them to utilize technology, 
sharing the fingerprints and the database, to know that if they 
pulled somebody over for a routine traffic stop and they are in 
a database as either a visa overstay or an illegal in the 
country, et cetera, that they are able then to contact your 
agents and look for deportation.
    However, we have the situation in Alabama, which sounds now 
like it is going to resolve itself hopefully in the fall here. 
I guess sort of the big hold-out that we see, although there 
are some municipalities, small ones in California, the big 
hold-out is probably one of the largest counties in the Nation, 
Cook County, Illinois, which has essentially become a sanctuary 
city. Yet they are still, the community is still looking for 
Federal dollars in grants or what have you to pay for detainees 
that they have in their jails, but they don't want to 
participate in the Secure Communities. Whether they are 
releasing these criminal aliens or what have you, I guess I am 
looking for some response, if you will, both just to clarify 
the Alabama situation, but particularly with the Cook County 
situation.
    Mr. Morton. Madam Chairwoman, first with regard to Alabama, 
I think that will be resolved. I think we will see full 
deployment in Mr. Rogers' home State. That was excellent timing 
there. So I expect the 11th Circuit to rule fairly shortly. I 
think the Supreme Court's decision in Arizona will lead us to a 
place where the 11th Circuit will rule, and we will be able to 
fully deploy in the remaining counties of Alabama over the 
Autumn.
    With regard to Illinois, as you note, it is a little more 
of a difficult situation there. Cook County, which is the 
largest county and has one of the largest detention systems in 
the country, has adopted an ordinance that essentially 
prohibits all cooperation with ICE, even with regard to very 
serious and violent offenders. I have written a number of 
public letters to the county. I am very much opposed to their 
approach. I think it is the wrong way to approach public safety 
in Cook County. I am quite confident that their approach is 
ultimately going to lead to additional crimes in Cook County 
that would have been prevented had we been able to enforce the 
law as the law is presently written.
    Just to give you some sense of it, in very large 
jurisdictions in the United States, the rate of recidivism for 
criminal offenders can be as high as 50 percent or more. When 
ICE can come in and remove offenders from a given community so 
that they can't re-offend, well, guess what, we take that 
recidivism rate to zero. So, for example, if you have 100 
criminal offenders and we are able to root them, that is 50 
crimes that will not happen over the next 3 years as a result 
of our enforcement efforts. That is ultimately the power of 
Secure Communities. It is a direct way to support public safety 
in a very thoughtful manner.
    What are we trying to do to resolve the situation in 
Illinois? We have been working with the county to see if there 
isn't some solution. I won't sugarcoat it. I don't think that 
that approach is going to work in full. We are going to need 
the help of others. We have been exploring, as the Secretary 
has said, our options under Federal law with the Department of 
Justice. We will see where that goes. Then with regard to the 
annual request by Cook County to be reimbursed for the costs of 
detaining individuals who are here unlawfully and have 
committed crimes, obviously I find that position to be 
completely inconsistent with then not allowing us access to and 
removing those very same individuals, and we will be taking a 
very hard look at their SCAAP request. That is the part of the 
law that allows the Federal Government to reimburse for those 
costs this year. My own position is going to be that if we do 
not have access to those individuals, we will not be able to 
verify their request for the year.
    Mrs. Miller. Well, I can't tell you how delighted I am to 
hear you make that very candid assessment of what is happening 
in Cook County, and as you say, exploring your options in 
regards to financial assistance from the Federal Government. We 
do want to work with Cook County, but there is reciprocity in 
all relationships, and they need to work with us as well. They 
are not immune to Federal law. If they are not going to assist 
us in removing not only criminal aliens, but those that might 
go on to commit a terrorist attack or what have you because 
they want to have their city become a sanctuary, the Federal 
Government cannot stand by idly and allow that to happen. It is 
absolutely the wrong message to be sending. So I am very 
appreciative of what you are saying, really exploring your 
options. Is there anything further that this subcommittee or 
the Congress can assist you with in that particular instance? 
If so, we are certainly all ears, because we do need to resolve 
that in the correct way. I think Cook County is going to have 
to recognize that the Federal Government is very serious about 
Secure Communities. We can't have just one hold-out in the 
country for such a thing or they really will become a magnet 
for all kinds of situations there.
    Mr. Morton. I would say that we are going to give it a very 
good effort to try to resolve the situation directly with Cook 
County and with Illinois and with the Department of Justice. If 
we can't do that, I think we would be happy to come back and 
explore further options with the committee.
    From our perspective, Federal law is very clear on the 
question of cooperation with Federal authorities in 
immigration. We do think that the ordinance is inconsistent 
with the terms of Federal law. Ultimately, I think we share the 
same aims, I would assume, with the authorities in Cook County, 
and that is public safety for the people that live there. It 
just does not make sense to release to the streets serious 
criminal offenders who shouldn't be in the country in the first 
place given the rate of recidivism.
    Mrs. Miller. I appreciate that. I guess just one other 
question I have. You were mentioning about the amount of, the 
percentage of those through the Secure Communities program that 
have been previously removed that are picked up again. I am 
looking at my notes here. I was trying to make some notes while 
you were talking, 16 percent or something that you are picking 
up had already been previously removed, which I think begs the 
question about some of the effectiveness that we have along 
border security. Do you have any comment? Are you surprised by 
that number? Or what are your thoughts on that?
    Mr. Morton. I think it highlights--so some of the criticism 
of Secure Communities has been that it identifies and removes 
certain individuals prior to conviction. The answer is, it does 
do that, but it does that in circumstances that, frankly, make 
a lot of sense from an enforcement perspective. When you look 
at, well: Who are these people that we are identifying removing 
prior to conviction? They are, in the overwhelming majority of 
cases, people that have already been removed from the country 
and have come back again unlawfully, or they are people who 
have already been through the immigration system, have a final 
order and ignored that final order. Remember, the only way you 
get identified by Secure Communities is to have been arrested 
in the first place for a crime. So we are talking about people 
who have come into the criminal justice system and have either 
a final order of removal or have been previously removed. 
Congress has been very clear with regard to both of those 
categories of people that their removal is a priority. So, of 
course, we focus on those two categories of people, even if 
they don't have a criminal conviction. It just makes sense. 
Otherwise, we would be releasing to the streets somebody we had 
deported before and has come back unlawfully. It is a felony 
under Federal law to reenter the country after a prior 
deportation. I just don't think it is the right policy for us 
not to focus our enforcement resources on those individuals.
    Mrs. Miller. Thank you, Director.
    The Chairwoman now recognizes the Ranking Member, Mr. 
Cuellar.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    Again, Director, I certainly want to congratulate you on 
the great work that you have been doing. I think, Members, if 
you look at the activated jurisdiction document here, there is 
a map of it, you can see everything that is green that shows 
the activated. It is 97 percent. Which means out of 3,181 
activated jurisdictions, you have got 3,074, which is pretty 
amazing, except for the ones that we have been focusing on.
    So, again, I want to congratulate you.
    I also, Members, I ask you to look at the testimony, the 
written testimony of the director, because he does talk about 
the efficiency. There is the transparency part of it on it and 
of course the safeguards that Sheriff Garcia in Harris County 
had talked about when we talked about--I think Congressman 
McCaul is very familiar with--to make sure that they do the 
work, but at the same time provide--make sure there is no 
profiling involved in that. So the input is very important on 
that.
    So I certainly want to thank you on that.
    Besides Alabama and besides Illinois, I believe there were 
a couple of jurisdictions out there that have passed ordinances 
also. I think they were in California, I believe. What is it? 
San Francisco, Santa Clara, I believe.
    Mr. Morton. Santa Clara.
    Mr. Cuellar. Exactly. Again, to follow up on this, it makes 
common sense, because I remember when I did the tour to make 
sure all my 12 counties, at least at the very beginning, the 
counties that I represent, I was traveling rural areas, urban 
areas, especially the rural areas, they liked this. Because if 
you are a small community, it is very important that you get 
this help. It was seen as tax savers, because at the same time, 
you are able to remove those folks out there that need to be 
removed. For a small community, rural community, that means a 
lot. The other thing is it is just common sense. If you have 
somebody there and then they are wanted for something else, it 
is only common sense that we coordinate the Federal, the State, 
the local partnerships. The communication part of it I think 
you all are working to make sure there is a lot more 
communication through the State and Federal--I mean local 
level. I appreciate that.
    But I think you hit something very important. I think 
sometimes local State politicians have a way of attacking the 
Federal Government, and then, at the same time, with one fist 
out there, then the other hand out there. I don't want to point 
out my State of Texas, but they point this out, saying, don't 
do this, don't do this, but then they will wait for the money. 
Under the SCAAP program, I think you are absolutely right; I 
think you all need to do, with all due respect to those 
communities, I don't represent those, but they cannot say, we 
don't want you to do Secure Communities but then, at the same 
time, they are requesting Federal dollars for holding those 
prisoners, those persons in there and asking for Federal 
dollars for reimbursement. So I would ask you, with all due 
respect, to look at those communities very, very carefully, 
because they cannot say, we don't want you here--they cannot be 
selective in what moneys they are committing. Because as the 
Chairwoman said, Federal law should preempt what they are doing 
there, unless it is under Article 10. We understand that. But I 
would ask you all to just look at those very carefully, because 
I think it would be unfair to be with a fist out there saying 
we don't want you, but then, at the same time, hand out there, 
give us money for reimbursement.
    So, again, Director, I don't have any questions to ask you, 
but I just wanted to just say I think you are doing a great 
job. Very balanced approach that you and your men are doing out 
there. I really appreciate it. It is not easy. It can become a 
little political sometimes. It is not your job to be political. 
But I think you are doing this in a very transparent, very 
fair, very focused way to make sure that we get the people who 
are not supposed to be in the United States and get them out, 
criminals that are not supposed to be here. So no questions, 
just a comment. Appreciate your good work and the men and women 
that work for you all.
    Mr. Morton. Thank you.
    Mr. Cuellar. Yield back the balance of my time.
    Mrs. Miller. The Chairwoman now recognizes the Ranking 
Member of the full committee, Mr. Thompson of Mississippi.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Director Morton, in June 2011, a memorandum between ICE and 
DHS for Civil Rights and Civil Liberties indicated that 
statistical monitoring would be used to identify possible 
anomalies in arrest patterns under Secure Communities, with 
reports at least once a quarter. What has been the result of 
the statistical monitoring to date?
    Mr. Morton. You are right, Mr. Thompson. One of the major 
reforms that we undertook to improve the transparency of the 
program and to address concerns that somehow Secure Communities 
might inadvertently have been used to promote racial profiling 
was to create a statistical analysis. We teamed up with the 
Office of Civil Rights and Civil Liberties at the Department of 
Homeland Security so that it wasn't simply something that ICE 
was doing itself; we had people who were knowledgeable and 
expert in this area. We actually helped them to hire a 
statistician.
    In direct response to your question, as we have started the 
statistical analyses, and we are looking at the first couple of 
instances in which the statistics appear to be anomalous, and 
we are doing a couple of things there. First and foremost, we 
are trying to work with the Department of Justice and the Civil 
Rights Division in particular to come up and use their 
expertise with some modeling to understand the statistics. 
There can be lots of reasons why a particular county has 
statistical spikes, some of them not necessarily related to 
civil rights concerns. So we are working with the Civil Rights 
Division to sort of come up with a cross-departmental approach, 
because ultimately it would be the Civil Rights Division that 
would investigate and prosecute anything that we would refer to 
them. We at ICE don't have civil rights investigative 
authority.
    The second thing that we are doing is, were we to identify 
any particular jurisdiction that did have a concern, we would 
work with the Civil Rights Division to engage in a direct 
investigation in the form of interviews, on-the-ground 
inspections.
    We are doing our own auditing of the program, which isn't a 
criminal investigation, but we go around to the various 
jurisdictions and audit the results ourselves. I am happy to 
say that to date we have not had instance to refer something 
for direct investigation to the Civil Rights Division, but we 
have had the first set of results that suggest there are some 
counties we need do a little deeper digging to determine what 
is going on. We are doing that with the Office of Civil Rights 
now.
    Mr. Thompson. Well, if, at some point, when you have moved 
along with the program, some of us would be interested in 
seeing some of those reports for our review.
    Mr. Morton. I think we would be happy to give the 
committee, or you in particular, a briefing on our results, and 
share exactly what we found with you.
    Mr. Thompson. On a local matter, a county south of me, 
Adams County in Mississippi, Natchez, Mississippi, where some 
ICE detainees sometimes are housed, there had been a rash of 
gang-related violence that actually led to the death of one 
guard and several injured. Explain to me, as well as committee 
Members, what kind of oversight do you give private contractors 
who have contracts with ICE? Kind of describe what you expect 
of those companies like CCA in this particular instance.
    Mr. Morton. Several things. We have detention standards 
that are worked into our contract with them that they must 
abide by. In many of the larger facilities that are dedicated 
or primarily focused on our use, we actually have our employees 
there in addition to the contractors. Even in those where we 
don't have a full-time presence, we routinely visit them.
    With regard to gang violence, there what we do is, just as 
in the criminal justice system, for those incarcerated, we 
screen for gang affiliations at intake. So we classify people 
based on their criminal convictions first and foremost, but we 
are looking for gang affiliations as well. We do what we can to 
separate gang members so that we don't create an undue 
concentration in a particular facility. Now, as you know, not 
everybody volunteers that they are a member of a gang. The use 
of tattoos is less widespread than it was in the past. But we 
do our very best.
    Mr. Thompson. Well, I thank you. I see my time has expired. 
But I would like to get with you just to further this 
discussion about this particular facility.
    Mr. Morton. Yes.
    Mr. Thompson. Thank you. I yield back, Madam Chairwoman.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Thank you, Director Morton, for being here today. You know, 
there is an interesting Constitutional debate raging across 
this country right now in the wake of the Supreme Court ruling 
on the Arizona law. I bring that up because South Carolina 
passed a very similar law. I think there will be future Supreme 
Court rulings on this. But I want to point to Justice Scalia's 
dissenting opinion when he talks about the rights of the 
sovereign States, and that we are a Nation of individual 
sovereign States, and what rights those States have in 
enforcement of Federal law, what rights the States have in 
protecting and securing their own State borders. I would point 
the Chairwoman and Members of the committee to read that 
opinion, if you haven't, because I think it is very interesting 
going forward.
    Director Morton, I was reading a memorandum of March 2, 
2011, where you point out some priorities for ICE. First off, 
thank you for what you do and what the agency does. I also want 
to mention the fallen CBP officer Mr. Cuellar mentioned 
earlier. Condolences to his family. Tragic. But going back to 
the priorities in 2011, interesting that you have got recent 
illegal entrants. So that means that if someone had just 
entered the country and is apprehended, then they get priority 
for extradition, taken back to their home country. Then I read 
in the June 17 memorandum, it goes on to talk about length of 
presence in the United States. So someone that broke the same 
law, crossed our border, just because they have been in this 
country longer than someone else, they are given priority? Can 
you explain the reasoning behind that, please?
    Mr. Morton. Sure, Mr. Duncan. So we start out, at the 
beginning of the equation is what can we do with the resources 
that Congress has provided us? On average, we can remove about 
400,000 people a year with the resources that we have. 
Obviously, our statutory direction is broader than that. To me, 
the question then is: Well, who are those 400,000 people going 
to be? Are they the first 400,000 people that walk in the front 
door? I don't think that that can be the approach. I think in a 
world of limited resources you have to say, no, it has got to 
be the 400,000 people that make the most sense for public 
safety and the administration of the immigration system.
    Mr. Duncan. I don't mean to interrupt you, but you are 
having to utilize the resources that you are given. But an 
apprehension is an apprehension whether that person has been 
here for 10 years or whether that person just crossed our 
border. You still have a contact with that person. So, in your 
priority, if they have been here longer, you are going to let 
them go; but if they just crossed the border, you are going to 
send them back.
    Mr. Morton. Not quite. I mean, what we are talking about is 
it is not a question of apprehension, but really of detention 
and ultimate removal. We have to get a removal order before we 
can remove somebody from the United States. By and large, in 
most instances, that is accomplished through detaining them. We 
have a limited number of detention beds. So the question is: Do 
we focus our resources on somebody who just came across the 
border 2 years ago as opposed to somebody who came across 10 
years, now has two United States citizen children and three 
cars in the driveway? In those circumstances, we say we are 
going to focus on the person who violated the law most 
recently. We are going to focus our resources on those people 
who have committed a crime. If I have to pick between putting a 
criminal in a detention space or somebody who has been here a 
very long time, I am going to pick the criminal every time 
because I think there is a much greater effect on public safety 
and immigration enforcement when I do that.
    Mr. Duncan. Where does, in the prioritization, where do 
visa overstays come in that hierarchy?
    Mr. Morton. Well, visa overstays, as the Chairwoman noted, 
are very difficult situations. They would come in recent border 
entrants if they were here recently. It is a real challenge for 
us. I don't want to minimize it. Roughly 40 percent of the 
people who are in the country unlawfully originally came on a 
visa. But the short answer to your question is that they fall 
in the second prioritization. The question would be: Have they 
been here a relatively recent period of time, or have they been 
here a long period of time? Do they have other equities that 
mean that they should be a lower priority for removal? For 
example, do they have United States citizen children? Are they 
married to a United States citizen? Those are the very real-
world decisions that we have to make when using the resources 
that Congress gives us. We have about 34,000 detention beds on 
any given day by statute. There are more people than we can put 
into them.
    Mr. Duncan. Real quickly, do you have access to the entry-
level data if someone came in on a visa? I was reading some of 
the sharing of information of fingerprint data. Do you all have 
access to the legal entry data?
    Mr. Morton. We do. As the Chairwoman noted, right after 9/
11, Congress mandated information sharing. That not only do we 
use it for purposes of visa overstays; it is the basis for 
Secure Communities.
    A little bit challenging with visa overstays in that 
typically the address that we will have on the I-94, let's say 
somebody is going to Disneyland for a vacation, they put that 
down, they list their hotel as the address, which was their 
address for that, and that is the last record that we have to 
go from. Then we have to do database searches and try to 
determine where that person lives. So it is a challenging 
enforcement regime. But again, the short answer to your 
question is, we do have access to the databases.
    Mr. Duncan. Thank you, Madam Chairwoman. My time is up. I 
yield back.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from Arizona, Mr. Quayle.
    Mr. Quayle. Thank you, Madam Chairwoman.
    Thank you, Director Morton. Good to see you again.
    Now, on July 10, 2009, you stated that 287(g) program is an 
essential component of DHS's comprehensive immigration 
enforcement strategy. Do you still agree with that assessment?
    Mr. Morton. I do, typically for the jail model, where it 
has proven to be a good use of our resources, a good use of the 
taxpayer dollars. I don't feel that way with regard to many of 
the task force agreements that have largely for economic 
reasons in the jurisdictions where they are found have become 
unproductive and have resulted in no removals.
    Mr. Quayle. Okay. So, on the ICE website and in your 
statement, there is a lot of very positive statements regarding 
the 287(g) agreements and how it is great that you can have 
Federal, State, and local law enforcement agencies working 
together. You were saying that right now in the prison systems. 
But I find it a little concerning that you have recently gotten 
rid of the 287(g) agreement with Arizona State and local law 
enforcement agencies. What is the reasoning behind it? Why pick 
Arizona as the sole one right now to actually remove a program 
that you said was an essential component of DHS's comprehensive 
immigration enforcement strategy?
    Mr. Morton. A couple of things. First, the agreements that 
we terminated in Arizona were task force agreements. We did not 
terminate the jail model agreements. They continue in place. 
So, and why did we terminate those models? Because they were 
leading to no removals. We viewed them as unproductive and not 
a good use of taxpayer resources.
    Mr. Quayle. Okay. Now let's get to the timing of this. It 
was within a couple hours after the Supreme Court ruled the 
main portion of Arizona's State law, SB 1070, Constitutional 
when Secretary Napolitano made the statement. Did they contact 
you and talk to you about why they would do it in such close 
proximity to the Supreme Court ruling? If they would remove the 
287(g) task force agreement if the Supreme Court ruled 
differently? What was the conversation there? I am just trying 
to--because the timing is extraordinarily curious. If the task 
force were not actually operating in the manner that you would 
have liked or that DHS would have liked, wouldn't it have been 
a little bit sooner or maybe even a little bit later? But 
within hours after the Supreme Court ruling, that is a very 
interesting time line that I would love to hear what they spoke 
to you about and what is going to be going forward.
    Mr. Morton. Well, we have had discussions underway with the 
Department for quite some time on the unproductive task forces. 
In the President's budget request for this year, the Department 
and OMB are seeking fewer dollars for the 287(g) program 
precisely because the task force model has proved to be 
unproductive. We were not going to renew the 287(g) agreements 
that were rescinded in Arizona for the next fiscal year, so we 
were going to terminate them anyway in a few months. In 
discussions with the Department, we ultimately decided that it 
made sense, upon the Supreme Court's ruling, to allay the 
future--clearly that they are not to have a series of truncated 
efforts. They were producing, as I said, zero removals for 2 
years running in 6 of the 7 cases. We decided to do it all at 
once.
    Mr. Quayle. So there was a concerted effort and a conscious 
decision that because of the decision by the Supreme Court, we 
wanted to do it quickly after that because--I don't understand 
why it was necessary to do it at that point, unless it was for 
various political reasons from the administration.
    Mr. Morton. I think we did it because we just thought that 
it made the most sense to do it at the same time. We knew we 
were going to terminate those agreements. They were producing 
no removals. We knew that there would be questions about how 
things would operate. We wanted to set the record very clear 
how we were going forward. That is you can call the law 
enforcement support center 24 hours a day for our assistance. 
We will respond to law enforcement queries in Arizona pursuant 
to our priorities. But we are not going to continue or suggest 
that we were going to continue with task forces that, again, 
from our perspective, were not a good use of taxpayer 
resources. I think the record is very clear on that. Anything 
that we are spending money on that leads to zero removals for 2 
years in a row doesn't make sense.
    Mr. Quayle. Okay. Now, another thing I want to talk about 
is that if you look at the crux of that law and trying to 
cooperate and work with Federal law enforcement officials to 
actually adhere to Federal law, and then you have--and the 
Chairwoman was mentioning it earlier--Cook County not being 
cooperative with the Secure Communities. Have you heard of 
anything that the administration is going to take against Cook 
County? Are they going to sue Cook County? Are they going to 
have the DOJ get involved in taking them to court because they 
are not actually--they are actually contradictory and contrary 
to what Federal law is rather than being--trying to aid Federal 
law enforcement officials. I know this is outside, that is DOJ, 
but I just want to know if you have heard anything about that.
    Mr. Morton. The short answer to your question is I have 
personally met with the Department of Justice to raise my 
concerns. Those concerns are shared by the Secretary. She has 
testified to that herself. So we are in discussions with the 
Department of Justice to see what we can do on many fronts to 
come to a better resolution in Secure Communities in Cook 
County, because I think we all agree that the present approach 
is not a good one. I don't know if you heard my answer before, 
but that both the question of can we work with the Department 
of Justice to look at any legal options we may have to get to a 
better place with the county, but also to look at the county's 
annual request for reimbursement under the Federal SCAAP 
program for the individuals that they detain that are there 
unlawfully. Cook County in past years has received several 
million dollars each year from the Federal Government to 
reimburse it for the cost of detaining people who are here 
unlawfully. We just find that position wholly inconsistent with 
not allowing us to----
    Mr. Quayle. So you haven't heard anything about a Federal 
lawsuit. Because it was pretty swift when Arizona passed their 
own law and the DOJ came in pretty quickly and operated in that 
fashion. But now with Cook County, since you have had some 
serious issues with them, you have had discussions with DOJ, 
there has been no talk about a lawsuit? Or is there a lawsuit 
pending?
    Mr. Morton. I have not yet heard back from the Department 
of Justice. In fairness to them, we have only been meeting for 
the last couple of months, and they wanted to see how certain 
pieces of court decisions came out. I expect to hear from them 
shortly. I can tell you that resolving the issue in Cook County 
is very important for me. It is one of the single largest 
detention systems in the country. Right now, it is not a 
question of Cook County releasing some individuals to us. They 
are releasing no individuals to us, including very violent 
offenders. I just don't think that is a good policy.
    Mr. Quayle. Thank you, Director.
    My time has expired. Thank you, Madam Chairwoman.
    Mrs. Miller. The Chairwoman now recognizes the gentlelady 
from Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you. Thank you to the Chairwoman and 
the Ranking Member.
    Welcome, Director Morton, and thank you for your service.
    As well let me offer my concern for the officers who were 
involved in an incident of violence, to their families--and I 
say violence, who were impacted, and to their families and to 
your organization. We must always look to thanking those who 
are on the front lines for us. I want to make sure that I do 
so. I believe that the work that you have been doing is very 
important. But I never come to an immigration hearing, whether 
it is Judiciary that I served for however long, and here in 
Homeland Security, and I call both assignments a privilege, 
that what this country needs is real comprehensive immigration 
reform so that we are not confusing and juxtaposing benefits 
and the right opportunity for those who want to immigrate to 
this country, and enforcement, and particularly enforcement 
against those who would want to do us harm.
    Secure Communities certainly has its failures and its 
value. I think it is important that we try to determine what 
lessons we have learned and how we can be more effective. I 
happen to applaud the President's decision on the DREAM Act. 
Living in a State like Texas, we have seen 90 percent, 99 
percent good as opposed to harm. Many of us have met these 
students that will be impacted up close and personal. I 
appreciate that there have been a number of utilization of 
powers under the law that your agency has been effective at 
utilizing. But I think this Executive Order will be helpful to 
all of us. But it would be better under comprehensive 
immigration reform.
    So I speak to two issues, and I will do it quickly. A 14-
year-old Texas girl was missing from 2010 until 2012, was 
mistakenly deported to Colombia by immigration agents. It was 
proven that the 14-year-old gave ICE agents a fake name which 
belonged to a 22-year-old illegal immigrant from Colombia who 
had warrants for her arrest. She was held in a Harris County 
jail in my community. ICE agents took the 14-year-old's 
fingerprints but did not confirm identity before deporting her. 
Another incident, according to media reports, James Makowski, a 
Chicago area resident born in India, adopted by an American 
family in New Jersey, and naturalized as a U.S. citizen at age 
1 was flagged by Secure Communities as an illegal immigrant 
after a drug-related arrest because the Federal Government had 
never updated his immigration status. He was held for 2 months 
in a maximum security prison before ICE officials acknowledged 
the error and canceled the detention order. Obviously, both 
cases are very troubling. I think we have engaged, my office 
engaged ICE on one of these troubling stories, the one in 
Houston.
    What failures in the Secure Communities databases and 
program procedures could allow a U.S. citizen to be detained? 
What is ICE doing to such? Then also please share before the 
subcommittee the outreach and collaboration efforts ICE 
initiated through Secure Communities, if at all, and lessons 
learned on both of those cases, please. Thank you.
    Mr. Morton. Thank you.
    With regard, let me start with the database issues. 
Obviously, one of the lessons that has become clear is that 
when you have an information-sharing system that depends on 
information in databases, the sharing and the results that come 
from it are only as good as the information that is in the 
system. So we have to have accurate records in place.
    The Chicago case is under litigation, so I have got to be 
careful about what I will say in that case. But I do think it 
highlights the need to have accurate records from all of the 
pieces of the puzzle. Part of Secure Communities is that 
Congress mandated the sharing of information. It is not simply 
ICE databases; it is all across the Department of Homeland 
Security, in fact all across the Federal Government. We need to 
make sure that the information in there is correct.
    With regard to the 14-year-old, I view that case as a very 
sad case. As you know, the young lady's history was somewhat 
troubled. There were many steps along the way, all the way from 
the moment she was arrested by the local police, she managed to 
fool the judge, the prosecutor, and her own defense attorney in 
that particular case, ultimately ICE, ultimately Colombian 
authorities. She got a residency upon her--in her time there.
    But, you know, we did meet with you and other members of 
the caucus, and we took a hard look. What it told us is that 
particularly with regard to juvenile offenders, when we have 
some sense that something is awry, even though on the surface 
everybody is saying that it is proper, we have got to go the 
extra mile with juveniles to make sure that we are not making a 
mistake, because mistakes can be made.
    It is why I am a big believer in improved transparency of 
the Secure Communities program. You are right that we, as an 
agency, were not as transparent as we should have been. We 
should have had better outreach. In many communities, Secure 
Communities is misunderstood. There is a lot of rumor, 
innuendo, concerns about things. The best way to answer those 
criticisms is to have outreach, to meet with people. We are 
doing that, and then to involve Members, such as yourself. I 
very much appreciate the assistance you gave us in Texas when 
we had our first outreach on the Secretary's memorandum with 
regard to the DREAM Act kids. That was the very first outreach 
in the country. It happened in your district. I think those 
kinds of things are very, very helpful.
    So we have just got to get out there. When a mistake is 
made, not run from that mistake, own that mistake, try to 
improve the system. It operates on a very large scale. Mistakes 
will happen. Then get out and explain to people why we are 
doing things the way we are doing them, what the reasons are 
for them, and do that in a dispassionate and professional way.
    Ms. Jackson Lee. Madam Chairwoman, may I just--let me thank 
you for your indulgence.
    Just there was one element, Director, where the 
fingerprints were not checked. In your review and working with 
juveniles, are you going to be more--this is under the young 
lady that is 14--persistent in looking at those elements to be 
able to ascertain, juvenile or not, or what condition this 
person is in?
    Mr. Morton. We are. One of the tricks in her case, I 
believe, was that she had never been encountered before in a 
way that led to her fingerprinting. So there was no other prior 
fingerprint to compare against. The fingerprints that were 
taken at Harris County was the very first time she had been 
fingerprinted in a way that ICE could have checked.
    We need to figure out a way, particularly with young 
juveniles, to have extra procedures in place.
    I will tell you that I have never seen a case like hers in 
my entire time in the Federal Government. As I noted, she was 
able to adopt an identity that many, many parts of the system 
believed. That is not a perfect answer, and the result needs to 
be that the system needs to deal with that, even when a 
troubled person adopts an identity like that. But I will say I 
do think it is a relatively rare case.
    Ms. Jackson Lee. I thank the Chairwoman.
    Before you close, I just want to make an inquiry. I didn't 
know if you were closing.
    Mrs. Miller. Yes, we are going to be closing.
    Ms. Jackson Lee. Madam Chairwoman and to the Ranking 
Member, I think this has been a very helpful hearing. I 
appreciate the director's comments.
    But with new technology and young people being more mature 
than they are, I think we need to really be focused on how we 
make sure we are attentive to those kinds of cases.
    I would also ask if the Chairwoman and the Ranking Member 
would consider incidents that are occurring at the border. 
There are lawsuits going on with respect to certainly very fine 
leadership at the border, but some troubling incidences where 
documented U.S. citizens' papers are being taken away, and they 
are being forced to sign papers that they are not U.S. 
citizens. We want to make sure that we don't have illegal 
entry. But we also, those of us in Texas, are concerned that 
our U.S. citizens who might decide to live temporarily in 
Mexico are having their documents voided out of pressure and 
intimidation. I believe it is a very viable hearing or inquiry 
to make. I will write a letter to that extent and ask for 
further opportunity for us to look into that.
    I yield back. I hope both the Chairwoman and Ranking Member 
would consider that as an important hearing. If we give 
resources to Customs, CBP, I think those resources should be 
used in an effective and legal and upstanding manner, as they 
have been. But this is an incident or incidents that I think 
require our review.
    I yield back. I thank the gentlelady.
    Mrs. Miller. I would comment to all of the Members that the 
hearing record will be held open for 10 days. So any other 
additional comments, questions, letters, what have you, can be 
submitted certainly for the record.
    I certainly want to thank Director Morton for attending 
today. I think this was an excellent hearing. A lot of 
questions. A lot of good answers. A lot of challenges ahead for 
your agency, for the committee, for the Nation as well as we 
all try to do our very best to make sure that we do have secure 
borders.
    I know you are running for an airplane, and we said we 
would try to be timely and cognizant of that fact. But we 
appreciate your service. On behalf of a very grateful Nation, 
we certainly appreciate the men and women in your agency that 
work very diligently each and every day to keep our country 
safe. With that, the subcommittee will stand adjourned.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
